IN THE SUPREME COURT OF THE UNITED STATES
No. _________
CITY OF OKLAHOMA CITY, an Oklahoma municipal corporation, and William
Citty, in his official capacity as Chief of the Oklahoma City Police Department,
Petitioners,
v.
Calvin McCraw, G. Wayne Marshall, Mark Faulk, Trista Wilson, Neal Schindler,
Oklahoma Libertarian Party, and Red Dirt Report,
Respondents.

CERTIFICATE OF SERVICE
I, Amanda B. Carpenter, counsel for petitioners and a member of the
Bar of this Court, certify that, on January 27, 2021, one copy of the Petition for
a Writ of Certiorari in the above-captioned case was sent priority mail, via a third
party mail carrier and by electronic mail, to each of the following counsel:
Joseph T Thai
P.O. Box 6197
Norman, OK 73070
thai@post.harvard.edu

Erwin Chemerinsky
215 Boalt Hall
Berkeley, CA 94720
echemerinsky@law.berkeley.edu

Brady R. Henderson
Megan E. Lambert
Ryan D. Kiesel
ACLU of Oklahoma
Foundation
PO Box 1626
Oklahoma City, OK 73103
bhenderson@acluok.org
mlambert@acluok.org
rkiesel@acluok.org

Micheal C Salem
Salem Law Offices
101 E Gray St, Suite C
Norman, OK 73069
msalem@msalemlaw.com
Greg P Beben
Legal Aid Services of Oklahoma,
Inc.
2901 N Classen Blvd, Suite 112
Oklahoma City, OK 73106
gregory.beben@laok.org

January 27, 2021

/s/ Amanda B. Carpenter
Amanda B. Carpenter
Deputy Municipal Counselor-OKC
200 N. Walker Ave., STE 400
Oklahoma City, OK 73102
Tel.: (405) 297-2451
Fax: (405) 297-3851
amanda.carpenter@okc.gov

